U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

    Northwest Fisheries Science Center Needs
   Improved Research Management Processes
to Better Implement its Salmon Research Plan


                   Report No. STD-14440/September 2002




                              PUBLIC
                              RELEASE



     Office of Audits, Science & Technology Audits Division

                                                     CONTENTS 


EXECUTIVE SUMMARY.................................................................................................. i 


INTRODUCTION................................................................................................................1 


OBJECTIVES, SCOPE, AND METHODOLOGY .............................................................3 


FINDINGS AND RECOMMENDATIONS........................................................................5 


I.	 The Salmon Research Plan Is An Important Step Toward Meeting

    the Center’s Goal Of Strengthening Its Salmon Research Program ..............................5 


II. The Center Should Improve Its Peer Review Process .....................................................6 

        A. 	The center did not obtain formal comments on its Salmon Research Plan........6 

        B.	 The center does not have a documented peer review process. ...........................7

        C. 	Recommendations ..............................................................................................7 

        D. 	NOAA’s Response to Recommendations. .........................................................8 


III. The Center Needs to Develop Multiyear Plans for Implementing the

     Salmon Research Plan....................................................................................................8 

        A. 	Center managers need multiyear plans and strategies for answering

             the 10 questions.................................................................................................8 

        B.	 Multiyear plans should be developed in consultation with the 

            regional office and other internal and external stakeholders. ..........................11 

        C. 	Recommendations ............................................................................................11 

        D. 	NOAA’s Response to Recommendations. .......................................................12 


IV. The Center Needs Better Processes for Managing Ongoing Work..............................12 

       A. 	The center has not documented how ongoing research is 

            answering questions in the plan .......................................................................12 

       B.	 The center should ensure that its annual planning and project 

            approval processes document the specific ways in which proposed 

            projects will support the Salmon Research Plan..............................................13 

       C.	 The center needs a process for tracking full project costs to

            provide managers with accurate historical information on which 

            to base approval of proposed research activities..............................................15 

       D. 	The center should include the Salmon Research Plan in its criteria 

            for assessing the merit of programs via the program review process. .............15 

       E. 	 Recommendations ...........................................................................................16 

       F.	 NOAA’s Response to Recommendations........................................................16 


V. 	Summary of NOAA’s Response to the Draft Report...................................................16 


Appendix I

Appendix II

U.S. Department of Commerce                                                    Report No. STD-14440-2-0001 

Office of Inspector General                                                                 September 2002


                                      EXECUTIVE SUMMARY 


Under the authority provided by the Endangered Species Act of 1973, the National
Marine Fisheries Service (NMFS) is responsible for preventing the extinction and
protecting the habitats of marine fish, mammals, sea turtles, and anadromous fish (such as
Pacific salmon), which migrate between the ocean and inland waterways.

NMFS’ Northwest Regional Office and Northwest Fisheries Science Center are
responsible for managing and protecting living marine resources, as well as, handling the
endangered species program in the Pacific Northwest. As such, they are responsible for
the area that includes both inland rivers and streams where salmon migrate in
Washington, Oregon, Idaho, and Montana, including much of the Columbia River Basin,
to large stretches of the Pacific Ocean. The regional office identifies living marine
resources and lists species that are endangered or threatened in its coverage area, works
with groups whose proposed projects could harm the listed species to mitigate the harm,
and creates management policies and plans to protect those species and their habitat. The
center, in turn, supports the regional office by assessing the status of living marine
resources in the Pacific Northwest and conducting scientific research to determine how
best to protect, recover, and wisely use these valuable resources. While the Center has a
large and growing groundfish program and conducts research on other marine species,
much of the center’s activities focus on Pacific salmon species, or “salmonids”1 (which
include steelhead trout).

The Pacific Northwest presents some especially difficult challenges to the work of
NMFS: the decline of salmon populations and NMFS’ steps to restore them have often
been at odds with the competing interests of communities, environmental groups, and
businesses, and have in some cases resulted in litigation. It is in this environment that the
Northwest Fisheries Science Center strives to conduct sound scientific research to
improve the status of evolutionarily significant units (ESUs),2 or populations of
endangered and threatened Pacific salmon. With its headquarters in Seattle, the center is
organized into five divisions that conduct basic and applied research that is needed to
conserve and manage living marine resources and their habitats in the Pacific Northwest.
In the area of salmon recovery, Center scientists conduct research on habitat, harvest,
hydropower (dams), and hatcheries. (For example, scientists study what attributes
contribute to a healthy salmon habitat and how to improve juvenile salmon survival
during their passage through dams.) The divisions are supported by five field stations,

1
  The center’s Salmon Research Plan—the topic of this report—refers to salmonid populations of salmon
and steelhead trout. Throughout the report we use the term salmon to mean this entire range of populations.
2
  Of 26 salmon ESUs, the Northwest Region and Science Center have lead responsibility for recovery
planning relating to 16 ESUs (those that are located in Washington, Oregon, and Idaho) and the Southwest
Region and Center have responsibility for 9 ESUs (those located in California). The two Regions and
Centers share responsibility for one ESU that is located on the Oregon/California border. As amended in
1978, the Endangered Species Act allows listing of "distinct population segments" of vertebrates as well as
named species and subspecies. NMFS policy stipulates that a salmon population (or group of populations)
will be considered "distinct" for purposes of the act if it represents an evolutionarily significant unit of the
biological species. An ESU is defined as a population that (1) is substantially reproductively isolated from
other conspecific (same species) populations and (2) represents an important component in the evolutionary
legacy of the species.
                                                       i
U.S. Department of Commerce                                      Report No. STD-14440-2-0001
Office of Inspector General                                                   September 2002

which use freshwater and saltwater laboratories or other research areas to provide a
staging ground for much of the center’s research.

In fiscal year 2001, the center’s budget for salmon research was $23.6 million out of its
total budget of $44.4 million. However, less than half of this work was funded from
NMFS’ $184.8 million appropriation for salmon recovery efforts. With the bulk of
NMFS’ FY 2001 funds mandated for state and tribal use, the center received $9.3 million
from the appropriation and obtained the balance of its salmon budget ($14.3 million) by
performing work, primarily hydropower research, under reimbursable agreements. Much
of its reimbursable funding comes from the Bonneville Power Administration and the
U.S. Army Corps of Engineers. These two agencies operate and maintain many of the
dams in the Columbia River Basin. As part of their responsibilities to preserve and
protect endangered and threatened populations impacted by the operation of the dams,
both of these agencies fund salmon research.

The Salmon Research Plan

In December 2000, the Northwest Regional Office issued the 2000 Federal Columbia
River Power System Biological Opinion. This document sets out methods for mitigating
the impacts of federally operated dams, powerhouses, and associated reservoirs on the
migration of salmon up and down the Columbia and Snake Rivers. The 2000 opinion
replaces the original 1995 opinion, which was limited to endangered and threatened
populations only in the Snake River. Since that time, nine additional populations in the
Columbia River Basin have been listed as endangered or threatened.

As described in the Salmon Research Plan and in our discussions with center managers,
while helping the regional office formulate the 2000 opinion, the center discovered that it
lacked basic scientific information, such as population estimates and the impact of
various risk factors on population growth, needed to provide pertinent advice about
actions affecting salmon. Given the number of salmon research projects that had been
conducted over the years, often in specific targeted areas, this lack of information was a
cause for concern and prompted the center to develop the Salmon Research Plan. The
plan, completed in September 2000, is built on a framework of 10 broad questions (and
numerous, specific subquestions) that sets an ambitious, interdisciplinary research agenda
for salmon recovery designed to ensure that center projects directly further recovery
efforts.

OIG Audit

We conducted a performance audit to assess management controls used to implement the
Salmon Research Plan, specifically focusing on (1) procedures for obtaining peer review
of the plan, (2) strategies and processes for implementing the plan, and (3) methods for
ensuring that ongoing work answers the 10 research questions. OMB Circular A-123,
Management Accountability and Control, requires federal agencies to develop
management controls to ensure that programs achieve their intended results. To
determine the appropriate controls for a science research program, we reviewed relevant

                                             ii
U.S. Department of Commerce                                     Report No. STD-14440-2-0001
Office of Inspector General                                                  September 2002

guidance from OMB, the National Academy of Science and its National Research
Council, the U.S. General Accounting Office, and other organizations. Our findings and
recommendations are summarized as follows:

The salmon research plan is an important step toward meeting the center’s goal of
strengthening its salmon research program. The Salmon Research Plan establishes the
center’s salmon research goals and priorities for salmon recovery, supports NMFS’
strategic goal to recover and maintain protected species, and was shared with other
NMFS organizations through a number of meetings and workshops to receive feedback
and input. The center has already used the plan to implement several support programs
that will improve the collection of salmon data and define the status and risk factors for
each endangered and threatened population and related habitat. The steps taken by the
center to develop the plan reflect some of the best practices considered essential to
developing solid research programs.

In addition, these steps also support OMB investment criteria recently issued in support
of the President’s science agenda for fiscal year 2004. The criteria challenge managers at
all levels of government to create well-conceived plans that, for every program, identify
goals, priorities, and links to national and “customer” needs; justify how funds will be
allocated to ensure quality; and implement appropriate outcome measures and milestones
for tracking progress toward goals and assessing whether funding should be enhanced or
redirected. The center’s work on the Salmon Research Plan and its ongoing activities to
implement the actions developed during our review put it in a better position to complete
OMB’s investment criteria. Ultimately, we believe these steps will lead to a research
program that addresses the best practices recommended by the National Research Council
and other organizations and the research results desired by the center (see page 5).

The center should improve its peer review process. Despite the many positives of the
Salmon Research Plan, its true value for improving the quality of the center’s salmon-
related work has not been rigorously evaluated via a transparent and documented peer
review process that considers whether the questions reflect the correct priorities.
Peer review is considered by experts at the National Academy of Science to be one of the
most effective methods for evaluating the quality and merit of scientific research plans,
proposals, programs, and products, and is commonly used by government agencies and
other organizations to obtain independent assessments of such work. Peer review can
promote operational efficiency by helping steer an organization’s activities in a
productive direction.

Although the Northwest Fisheries Science Center reportedly often uses peer review to
check reports before they are finalized and has research papers published in peer-
reviewed professional journals, it did not conduct a formal peer review of the Salmon
Research Plan and does not have a documented peer review policy or a well-defined
process for performing peer review of its research plans. NMFS guidance requires that
science centers have formal peer review policies and processes, but offers no specific
direction for establishing such procedures. NMFS should revise this guidance to clearly
delineate the requirements for documented peer review processes. In addition, the

                                            iii
U.S. Department of Commerce                                     Report No. STD-14440-2-0001
Office of Inspector General                                                  September 2002

Northwest Fisheries Science Center should document its existing peer review process,
add a step for obtaining formal comment on research plans, and use this revised process
to formally peer review the Salmon Research Plan (see page 6).

The center needs to develop multiyear plans for implementing the Salmon Research
Plan. Multiyear plans are a management control that takes broad objectives, such as
those posed by the 10 questions in the Salmon Research Plan, and details a blueprint for
measuring progress toward achieving them. According to experts at the National
Research Council and other organizations, multiyear plans have several benefits: they (1)
provide a framework for integrating research programs across functional and
organizational boundaries; (2) establish a mechanism for evaluating ongoing research,
identifying data gaps, and involving stakeholders; (3) introduce transparency into
program/center activities by providing interim performance measures that link to longer
term strategic goals; (4) enhance efforts to obtain needed resources; and (5) provide
methods to better anticipate, evaluate, and complete research activities within time frames
that are more realistic than annual projections.

Based on guidance that described attributes of a multiyear plan provided by the National
Research Council and other government organizations, we evaluated the planning
documents we received from the center to determine whether the documents constituted
multiyear plans that could be used to implement the research programs that would answer
the 10 questions in the Salmon Research Plan. We found that although the Salmon
Research Plan had been in place for nearly 2 years, the center has developed multiyear
plans for only 3 of the 10 research questions (see table 1). In addition, while NMFS
Northwest regional managers (who benefit from the center’s research) participated in
meetings used to develop the plan, these managers told us that they have had limited
formal involvement in decisions related to implementing the Salmon Research Plan.




                                            iv
       U.S. Department of Commerce                                                 Report No. STD-14440-2-0001
       Office of Inspector General                                                              September 2002

       Table 1. OIG Evaluation of Whether Research Questions
       Were Supported by Multiyear Plans
                   10 Research Questions3                               OIG Findings Regarding the Question:
                                                                        Is there a multiyear plan that addresses
                                                                        how this research question will be
                                                                        answered?
1. How can we identify the requirements for viability in a salmonid     No.
   ESU so that we can provide quantitative goals for recovery?
2. Is salmon harvest compatible with recovery of ESA listed             No.
   populations?
3. To what extent do hydropower operations contribute to the            No.
   declining population trends evident in many salmon populations,
   and how can we quantify the benefits of major alterations in
   hydropower operations?
4. To what extent do hatchery operations of any kind contribute to or   Yes, however some significant attributes missing.
   mitigate the risk of extinction faced by wild salmon populations?
5. Can we establish explicit links between salmon productivity and      Yes, however some significant attributes missing.
   habitat attributes that can be protected or restored via
   management actions?
6. Should our strategies for salmon recovery take climate change        No, however some climate change projects are in
   into account?                                                        the multiyear plan for question 7.
7. How do ocean and estuarine conditions and the “4-H” risk factors     Yes, however some significant attributes missing.
   interact and potentially constrain opportunities for recovery?
8. Is there a way of making the ideal of “ecosystem and multispecies    No, however some nutrient and predation projects
   management” operational for salmon?                                  are in the multiyear plans for question 5 and 7.
9. What are the impacts of nonindigenous species on salmon and          No, however some nonindigenous species
   how might these impacts be mitigated?                                projects are in the multiyear plan for question 7.
10. Using economic analyses to establish conservation priorities.       No.


       Center managers concurred with our assessment that multiyear plans could be completed
       for most of the questions, and reported that they have some of the information they need
       to proceed with plans for certain questions. For some other questions, they pointed out
       that the center has only recently obtained either the expertise or the funding to conduct
       the necessary research.

       In regards to the hydropower research, managers stated the research needs are well known
       and defined in the 2000 biological opinion and research plans completed by the outside
       funding agencies with input from center staff. However, we believe that a multiyear
       hydropower research plan is important to (1) ensure that the highest priority hydropower
       questions and subquestions in the center’s Salmon Research Plan are being fully
       addressed, (2) provide a single source of information that can be used by decision makers
       and interested stakeholders to understand the projects, funding, and milestones for the
       research being conducted by the center in this area, and (3) show via performance
       measures how research in this area is contributing to salmon recovery.



       3
        The Salmon Research Plan, Volume II. Although the Salmon Research Plan describes these research
       areas as 10 questions, the research area listed as number 10, “Using economic analyses to establish
       conservation priorities” is not phrased as a question in the plan.
                                                            v
U.S. Department of Commerce                                       Report No. STD-14440-2-0001
Office of Inspector General                                                    September 2002

NMFS Northwest regional and center management should ensure that a consistent
method exists for involving the Northwest Regional Office and other stakeholders in
developing multiyear plans to achieve the goals of all 10 research questions. The
Northwest science center should also (1) develop multiyear plans that include standard
planning attributes, (2) work with regional staff to identify potential sources of funding
for projects contained in the multiyear plans, and (3) follow appropriate peer review
processes (see page 8).

The center needs better processes for managing ongoing work. The Salmon Research
Plan challenges the center to carefully evaluate its research projects and prioritize
those projects that “contribute in a major way to answering one of these key
questions.” We found that the center lacked adequate controls for (1)
documenting how ongoing in-house and reimbursable funded research is
answering questions in the plan, (2) ensuring that its annual planning and project
approval process documents the specific ways in which proposed work will
support the plan, and (3) tracking actual time spent on projects to provide decision
makers with the data they need to make informed decisions about the cost of
salmon recovery research and ensure that funds obtained from reimbursable
agreements are sufficient to cover the work. The center also could not
demonstrate how the Salmon Research Plan is used as criteria during program
reviews done by internal and external reviewers to assess the merit of its
programs. However, it incorporated the appropriate research questions from the
plan as criteria for the next program review during our audit.

The science center should assess and document the extent to which existing
projects support finding answers to the salmon questions, clearly link the Salmon
Research Plan to its annual planning and project approval process, implement a
system to track full program costs, and permanently incorporate the research
questions into its program review criteria (see page 11).



In response to the draft report, NOAA agreed with all of our recommendations
and further stated that all of its NMFS science centers could benefit from
undertaking similar actions. NOAA also made a number of comments that we
summarized and addressed at the end of this report, some of which resulted in our
adding further clarification or additional details to the report. NOAA’s complete
response to our findings and recommendations is included as Appendix II.




                                             vi
U.S. Department of Commerce                                                 Report No. STD-14440-2-0001 

Office of Inspector General                                                              September 2002


                                         INTRODUCTION 


Under the authority provided by the Endangered Species Act (ESA) of 1973, the National
Marine Fisheries Service (NMFS) is responsible for preventing the extinction and
protecting the habitats of marine fish, mammals, sea turtles, and anadromous species
(such as Pacific salmon), which migrate between the ocean and inland waterways.

NMFS fulfills these missions via activities conducted at its headquarters in Silver Spring,
Maryland, and five regional offices, each of which is responsible for identifying species
that are endangered or threatened and developing regulations, guidelines, and
management policies to protect those species and their habitats. Regional science centers,
in turn, support these policies by assessing the status of living marine resources at risk for
significant population loss and by conducting research to determine how best to protect,
recover, and wisely use these valuable resources.

NMFS’ work is often controversial. The Endangered Species Act requires the U.S. Fish
and Wildlife Service or NMFS, depending on the species, to determine whether to add a
species to the federal lists of endangered and threatened wildlife and plants. Once listed,
species are afforded the full range of protections available under the act, including
prohibitions on killing, harming, or otherwise taking them. In addition, ESA requires all
federal agencies to protect threatened and endangered species and to consult with the U.S.
Fish and Wildlife Service or NMFS, depending on the species, to ensure that their actions
do not jeopardize listed species or destroy or adversely modify critical habitats. NMFS
issues biological opinions that comment on whether a federal action is likely to harm a
species or habitat. When such effects are possible, NMFS may offer terms and conditions
on the action or give reasonable alternatives to the proposed action. The consultation
process that produces a biological opinion can also result in the action agency changing
its proposed action. The stakes for those impacted by the consultation process and
biological opinions are often high: agency negotiations or NMFS’ findings can determine
whether water is released for irrigating a farmer’s crops, land is leased for grazing cattle,
salmon are harvested, or dams and roads are built.

Saving Salmon in the Pacific Northwest

The Pacific Northwest region presents some especially difficult challenges for NMFS: the
decline of salmonid1 populations (including salmon and steelhead trout) and NMFS’ steps
to restore them have at times clashed with the interests of communities, environmental
groups, and businesses, and have in some cases resulted in litigation. It is in this
environment that the Northwest Fisheries Science Center strives to conduct sound
scientific research to improve the status of evolutionary significant units (ESUs)2 of
endangered and threatened Pacific salmon.

1
  The center’s Salmon Research Plan—the topic of this report—refers to salmonid populations of salmon
and steelhead trout. Throughout the report we use the term salmon to mean this entire range of populations.
2
  Of 26 salmon ESUs, the Northwest Region and Science Center have lead responsibility for recovery
planning relating to 16 ESUs (those that are located in Washington, Oregon, and Idaho) and the Southwest
Region and Center have responsibility for 9 ESUs (those located in California). The two Regions and
Centers share responsibility for one ESU that is located on the Oregon/California border. As amended in
                                                    1

U.S. Department of Commerce                                                       Report No. STD-14440-2-0001 

Office of Inspector General                                                                    September 2002


Headquartered in Seattle, the center is organized into five divisions that conduct basic and
applied research used by NMFS’ Northwest Regional Office and other decision-makers to
conserve and manage living marine resources and their habitats in the Pacific Northwest.
This area includes both inland rivers and streams where salmon migrate in Washington,
Oregon, Idaho, and Montana, including much of the Columbia River Basin, to large
stretches of the Pacific Ocean off the Washington and Oregon Coasts. The center’s
salmon research is largely devoted to understanding the complexities of salmon biology
and ecology, and has a diverse focus that includes genetics, fish health and disease,
hydrosystem (dam) passage, hatchery reform, habitat restoration, harvest models, and
biological productivity.



                                                             Columbia River Basin




                  Source: U.S. Army Corps of Engineers, Northwestern Division Website
                  http://www.nwd-wc.usace.army.mil/report/colmap.htm

                  The Northwest Regional Office and science center’s service area includes the entire
                  U.S. portion of the Columbia River Basin—an area that spans 4 states.


The center is also supported by five field stations, which use freshwater and saltwater
laboratories or other research areas to provide a staging ground for the center’s research.




1978, the Endangered Species Act allows listing of "distinct population segments" of vertebrates as well as
named species and subspecies. NMFS policy stipulates that a salmon population (or group of populations)
will be considered "distinct" for purposes of the act if it represents an evolutionarily significant unit of the
biological species. An ESU is defined as a population that (1) is substantially reproductively isolated from
other conspecific (same species) populations and (2) represents an important component in the evolutionary
legacy of the species.
                                                        2
U.S. Department of Commerce                                       Report No. STD-14440-2-0001
Office of Inspector General                                                    September 2002

Though salmon research is the one of the center’s primary missions, less than half of this
work is funded by NMFS. In fiscal year 2001, for example, the center’s budget for
salmon research was $23.6 million (of a total budget of $44.4 million). NMFS’
appropriation for salmon recovery efforts was $184.8 million, but because the bulk of
these funds were mandated for state and tribal use, the center received $9.3 million from
the appropriation. It obtained the balance of its salmon budget ($14.3 million) by
performing work, primarily hydropower research, under reimbursable agreements. Much
of its reimbursable funding comes from the Bonneville Power Administration and the
U.S. Army Corps of Engineers. These two agencies operate and maintain many of the
dams in the Columbia River Basin. As part of their responsibilities to preserve and
protect endangered and threatened populations impacted by the operation of the dams,
both of these agencies fund salmon research.

The Salmon Research Plan

In December 2000, NMFS issued the 2000 Federal Columbia River Power System
Biological Opinion which was intended to mitigate the impact of federally operated dams,
powerhouses, and associated reservoirs on the migration of salmon and steelhead up and
down the Columbia and Snake Rivers. The 2000 opinion replaces the original 1995
opinion, which was limited to listed species only in the Snake River. Since that time,
nine additional populations in the Snake and Columbia rivers have been listed.

As described in the Salmon Research Plan and in our discussions with center managers,
while helping the regional office formulate the 2000 opinion, the center discovered it
lacked basic scientific information, such as population estimates and the impact of
various risk factors on population growth, needed to provide pertinent counsel on actions
affecting salmon. Given the number of salmon research projects that had been conducted
over the years, often in specific targeted areas, this lack of information was a cause for
concern and prompted the center to develop the Salmon Research Plan. This document,
authored by several of the center’s senior scientists and completed in September 2001,
poses 10 broad questions (and numerous, specific subquestions) that—in challenging the
center to answer—aim to promote scientific research which supports recovery. Its clearly
stated goal is to set a standard against which the potential contribution of each proposed
study can be measured: “If a research project does not contribute in a major way to the
answering of one of these key questions,” the plan states, “then the priority of that project
needs to be reconsidered.” (See the appendix for a listing of the questions and
subquestions.)

                   OBJECTIVES, SCOPE, AND METHODOLOGY

From January through June 2002, we conducted a performance audit to assess
management controls used to implement the Salmon Research Plan, specifically focusing
on the center’s (1) procedures for obtaining external peer review of the plan, (2) strategies
and processes for implementing the plan, and (3) methods for ensuring that ongoing work
answers the 10 research questions. To determine appropriate controls for scientific
research programs, we reviewed research management and peer review guidance
provided by the National Academy of Science and the associated National Research
                                             3

U.S. Department of Commerce                                                Report No. STD-14440-2-0001
Office of Inspector General                                                             September 2002

Council,3 U.S. General Accounting Office, and others. Some of this guidance was based
on consultation these organizations provided to the Environmental Protection Agency
(EPA) in response to congressional pressure to improve EPA’s science programs. The
research process they recommended to EPA science centers and laboratories is similar to
that started by the Northwest center, and thus offers a good model for comparison. To
underscore the importance of careful management of research and development
programs, we also reviewed research management guidance recently provided by OMB as
part of President Bush’s management agenda.

To understand NMFS planning and research management processes, we interviewed
managers, scientists, and administrative staff from NMFS headquarters, Northwest
Regional Office, and Northwest Fisheries Science Center, as well as from the science
center’s field stations in Manchester and Pasco, Washington. We reviewed NMFS’
strategic plans, policies, and procedures, GAO reports, OMB guidance regarding
management controls, and pertinent laws and regulations. We examined selected
reimbursable agreements, spending plans, current year operating plans, issue papers, and
other appropriate documentation. We did review—for background information only—
computer-generated data regarding appropriated and reimbursable funds used by the
center for salmon research in fiscal year 2001, and believe that for our purposes, the data
was sufficiently reliable.

Our primary concern was whether internal controls related to the plan’s development and
implementation were adequate. Overall, we found that the science center did not have
sufficient processes or documented policies for ensuring the adequacy of its peer review,
planning, or program review processes.

We conducted our audit in accordance with generally accepted government auditing
standards, under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




3
 The National Research Council was organized by the National Academy of Sciences to improve
understanding of science and technology, and to advise the federal government on related issues.
                                                    4

U.S. Department of Commerce                                              Report No. STD-14440-2-0001 

Office of Inspector General                                                           September 2002


                         FINDINGS AND RECOMMENDATIONS

I. 	    The Salmon Research Plan Is An Important Step Toward Meeting The
        Center’s Goal Of Strengthening Its Salmon Research Program

The center, in developing the Salmon Research Plan, took an important proactive step to
identify research priorities to guide its salmon research. Such steps are now being
recommended as part of the President’s science agenda for fiscal year 2004, which calls
for federal agencies to maximize the efficient and effective use of the nation’s research
and development (R&D) resources. In support of the President’s agenda, OMB recently
issued R&D investment criteria, which challenge managers at all levels of government to
create well-conceived plans that, for every program, identify goals, priorities, and links to
national and “customer” needs; justify how funds will be allocated to ensure quality; and
implement appropriate outcome measures and milestones for tracking progress toward
goals and assessing whether funding should be enhanced or redirected. The Center’s
work on the Salmon Research Plan and the actions outlined in our report put them in
position to complete the investment criteria laid out by OMB.

Not only did the center position itself to satisfy the criteria identified by OMB, but it also
initiated a research management process that utilized best practices recommended to other
science organizations. While no explicit criteria exists for how to implement science
research programs, experts that have reviewed government research programs
recommend a number of best practices for research and development efforts that directly
relate to the OMB criteria. Many of these practices emerged from assessments by the
NRC, GAO, and other experts of EPA’s research management needs. In that instance, it
was determined that EPA did not have a coherent agenda and operating plan to guide
scientific efforts at its headquarters, laboratories, and centers, or to support its focus on
high-risk environmental problems.5 Similar to the situation at NMFS’ Northwest center,
EPA’s voluminous scientific data had many critical gaps that required long-term research
to fill.

The experts recommended that EPA (1) create a strategic planning and management
process, (2) require individual labs and centers to develop research plans that support the
strategic plan, and (3) make lab and center directors responsible for defining and
justifying the priority problems for their part of the organization and for identifying and
developing research and technical support programs that reflect those priorities. The
experts also called on EPA to use priority-setting processes that are transparent and
documented, thereby giving decisions greater credibility among the broad range of
stakeholders within and outside the agency.

The Northwest science center’s Salmon Research Plan embodies attributes recommended
for EPA, and is thus a significant accomplishment: the center’s plan responds to goals
contained in NMFS’ strategic plan, namely, to recover and maintain protected species. It
establishes program priorities and was shared with other NMFS organizations through a

5
 EPA (U.S. Environmental Protection Agency), Safeguarding the Future: Credible Science, Credible
Decisions. Expert Panel on the Role of Science at EPA, 1992.
                                                  5

U.S. Department of Commerce                                            Report No. STD-14440-2-0001
Office of Inspector General                                                         September 2002

number of meetings and workshops to receive feedback and input. The center has already
implemented several support programs referred to in the plan: a data management group
that will improve data handling and expand collection to include salmon-related
information from state and tribal fishery biologists, and a “cumulative risk initiative”—a
process for clearly defining the status and risk factors for each endangered and threatened
population and related habitat.

II.     The Center Should Improve Its Peer Review Process

Given the numerous stakeholders and myriad competing interests involved in Pacific
salmon recovery, and the importance of the center’s recovery efforts, the quality and
merit of the Salmon Research Plan must be evaluated and documented. Peer review is
considered one of the most effective methods for evaluating the quality of federally
funded and conducted research, and government agencies often use this process to obtain
assurance of program quality. Peer review is a means of assessing the merit of research
programs by independent, unbiased experts who have the technical and scientific
knowledge to perform such analysis.4 The Northwest science center did not subject the
Salmon Research Plan to a formal peer review—largely because it has no formalized
process for such plans. Thus, it has no documented unbiased affirmation that the plan
identifies the most critical research questions, can foster stakeholder buy-in, and reflects
the credibility and transparency of the center’s planning process.

A. The center did not obtain formal comments on its Salmon Research Plan.

Despite the many positives of the Salmon Research Plan, its true value for improving the
quality of the center’s salmon-related work has not been rigorously evaluated via a
transparent and documented peer review process that considers whether the questions
reflect the correct priorities.

Center management staff recognized the importance of peer review and put the plan to a
test they believed was adequate: they reported presenting it to NMFS staff at a December
2000 planning and management meeting, posting it for review on the center’s web site,
and providing it to an independent science advisory board and selected outside
stakeholders with the notation, “for your information and for comment as appropriate.”
These staff also stated that all of the comments they received on the plan were general,
and described the plan “as a clear, cogent articulation of the key questions that should
guide research toward salmon recovery.” Staff also noted that they had “received no
specific feedback…and in particular, no comments to suggest that any of the questions
were not on the mark.”

We asked staff to provide us with documentation of this review process and the
comments that resulted, but they could not produce any. We also checked the web site to
view the plan and found that it was not available there, but was instead on the center’s

4
 Committee on Science, Engineering, and Public Policy of the National Academy of Science, 1999.
Evaluating Federal Research Programs, Research and the Government Performance and Results Act.
Washington, DC: National Academy of Press.
                                                 6

U.S. Department of Commerce                                                Report No. STD-14440-2-0001
Office of Inspector General                                                             September 2002

“internal” intranet, which is accessible to employees only. When we pointed out the error,
the center quickly rectified it by placing the plan on its Internet site.5

We do not doubt that the center sought a review of the plan at the NMFS management
conference and from an independent advisory board. But without appropriate
documentation of a review by independent experts who have no conflict of interest with
the center, the Salmon Research Plan lacks the high level of transparency, accountability,
and credibility it needs to ensure that it is an effective tool for forging the appropriate
research to meet the center’s data-gathering goals.

B.	 The center does not have a documented peer review process.

NMFS’ Science Quality Assurance Program, Fisheries Science Center Accreditation
Standards, establishes broad guidelines for peer review that each center must follow:
“science centers shall develop a routine peer review process for stock assessments,
scientific advice, and science programs.” The details of the process are left to the centers’
discretion.

Staff at the Northwest science center explained that virtually all center activities are
subject to some level of peer review. For example, scientists review reimbursable project
reports before the reports are finalized. In addition, research is written up and submitted
to peer-reviewed professional journals. However, the center does not have a written
policy that documents its standards and process for peer review, and has never developed
a process for the peer review of planning documents like the Salmon Research Plan.
Staff stated that they had begun developing an internal quality standard to detail the level
and type of review the center would conduct for different products, but did not complete
it because NMFS headquarters wanted to assess all of the center’s programs under the
Science Quality Assurance Program before additional actions were taken. We believe the
science center should complete this standard because it would be a useful tool for
ensuring that all products and proposed activities receive the appropriate level and type of
peer review and that reviewer comments are documented. We also believe NMFS’
guidance on peer review should clearly state that centers must put their policies in
writing.

C. 	Recommendations

The assistant administrator for fisheries should take the necessary actions to ensure that:

1. 	 NMFS headquarters revises the Science Quality Assurance Program, Fisheries
     Science Center Accreditation Standards, to clearly require science centers to develop
     documented peer review processes.
2. 	 Northwest Fisheries Science Center managers
     • 	 document existing peer review processes,


5
 The Salmon Research Plan can be accessed through the featured link’s section of the center’s home page
located at http://www.nwfsc.noaa.gov/.
                                                    7

U.S. Department of Commerce                                      Report No. STD-14440-2-0001
Office of Inspector General                                                   September 2002

    • 	 develop a peer review process for research plans that includes a step for obtaining
        formal comments, and
    • 	 use this new process to conduct a formal review of the Salmon Research Plan.

D. NOAA’s Response to Recommendations

NOAA concurs with the recommendations.

III. 	   The Center Needs to Develop Multiyear Plans for Implementing the Salmon
         Research Plan

Once the center verifies the quality and merit of the Salmon Research Plan, it should use
multiyear plans to track its progress toward answering the 10 questions from one year to
the next. Multiyear plans are a management control that takes broad objectives, such as
those posed by the 10 questions, and details a blueprint for measuring progress toward
achieving them. Although the Salmon Research Plan has been in place for nearly 2 years,
the center has developed multiyear plans for only a few of the research questions, and
some of these are incomplete. According to the National Research Council and other
experts, multiyear plans have several benefits: they (1) provide a framework for
integrating research programs across functional and organizational boundaries; (2)
establish a mechanism for evaluating ongoing research, identifying data gaps, and
involving stakeholders; (3) introduce transparency into program/center activities by
providing interim performance measures that link to longer term strategic goals; (4)
enhance efforts to obtain needed resources; and (5) provide methods to better anticipate,
evaluate, and complete research activities within time frames that are more realistic than
annual projections.

OMB Circular No. A-123, Management Accountability and Controls, requires agencies to
develop management controls for federal programs, such as policies and procedures that
ensure, among other things, a program (1) achieves the intended results, (2) uses
resources in a way that is consistent with the agency’s mission, (3) complies with
applicable laws and regulations, and (4) provides decision makers and stakeholders with
reliable and timely information. These outcomes are similar to the benefits of multiyear
plans cited by National Research Council and other experts. Therefore, we believe that
multiyear plans are a reasonable management control for the center’s salmon research
program.

A. 	Center managers need multiyear plans and strategies for answering the 10
    questions.

Our review of the guidance provided by these experts and of the center’s existing
multiyear planning documents uncovered a number of attributes inherent in strong
multiyear plans: typically, such plans are developed in coordination with key
stakeholders, require peer review, and clearly delineate (1) research projects and
priorities; (2) staff and funding requirements; (3) project milestones; (4) roles and
responsibilities of significant partners; and (5) interim performance measures that link to
long-term strategic goals. We evaluated the planning documents we received from the
                                               8

     U.S. Department of Commerce                                                  Report No. STD-14440-2-0001
     Office of Inspector General                                                               September 2002

     center against these attributes to determine whether the documents constituted multiyear
     plans that supported the objectives of the 10 questions in the Salmon Research Plan. We
     determined that the center prepared multiyear plans for three of the research questions
     (questions 4, 5, and 7), although they did not contain all the key attributes. None of these
     multiyear plans had clear performance measures and only one had been peer reviewed.

     The center did not prepare multiyear plans for seven other questions. However, some
     research projects related to questions 6, 8, and 9 were addressed in the multiyear plans for
     questions 5 and 7. (See table 1.)

     Table 1. OIG Evaluation of Whether Research Questions
              Were Supported by Multiyear Plans
                    10 Research Questions1                                   OIG Findings Regarding the
                                                                                       Question:
                                                                         Is there a multiyear plan that
                                                                         addresses how this research question
                                                                         will be answered?
1. How can we identify the requirements for viability in a salmonid      No.
   ESU so that we can provide quantitative goals for recovery?
2. Is salmon harvest compatible with recovery of ESA listed              No.
   populations?
3. To what extent do hydropower operations contribute to the             No.
   declining population trends evident in many salmon populations,
   and how can we quantify the benefits of major alterations in
   hydropower operations?
4. To what extent do hatchery operations of any kind contribute to or    Yes, however some significant attributes
   mitigate the risk of extinction faced by wild salmon populations?     missing.
5. Can we establish explicit links between salmon productivity and       Yes, however some significant attributes
   habitat attributes that can be protected or restored via management   missing.
   actions?
6. Should our strategies for salmon recovery take climate change into    No, however some climate change projects
   account?                                                              are in the multiyear plan for question 7.
7. How do ocean and estuarine conditions and the “4-H” risk factors      Yes, however some significant attributes
   interact and potentially constrain opportunities for recovery?        missing.
8. Is there a way of making the ideal of “ecosystem and multispecies     No, however some nutrient and predation
   management” operational for salmon?                                   projects are in the multiyear plans for
                                                                         question 5 and 7.
9. What are the impacts of nonindigenous species on salmon and how       No, however some nonindigenous species
   might these impacts be mitigated?                                     projects are in the multiyear plan for question
                                                                         7.
10. Using economic analyses to establish conservation priorities.        No.


     The science center has neither formal policy nor procedures for developing multiyear
     plans. However, it did delegate responsibility for implementing the Salmon Research
     Plan and assign the title—salmon senior scientist—to the director of one of its divisions.

     1
      The Salmon Research Plan, Volume II. Although the Salmon Research Plan describes these research
     areas as 10 questions, the research area listed as number 10, “Using economic analyses to establish
     conservation priorities,” is not phrased as a question in the plan.

                                                           9
U.S. Department of Commerce                                     Report No. STD-14440-2-0001
Office of Inspector General                                                  September 2002

The position’s duties entail ensuring development and coordination of centerwide
activities to implement the Salmon Research Plan, collaborating with center officials to
develop research that addresses high-priority questions, and working with other divisions
and regional offices to secure funding for needed research—all objectives that multiyear
plans would address.

We found that the salmon senior scientist did not develop a strategy for coordinating
implementation of the Salmon Research Plan. He explained that he allowed division
directors to decide how to answer the questions on their own. As a result, the center
wound up with a research agenda that lacked comprehensive multiyear planning which
would better ensure that the goals of the Salmon Research Plan are met.

Without multiyear plans the center increasingly risks the following:

   • 	 Being unable to readily demonstrate to Congress and other stakeholders how
       ongoing and planned research is moving toward answering the 10 questions.
       Multiyear operating plans that detail salmon recovery efforts and track their
       progress could provide such information and be posted on the center’s web site
       for review by all interested parties.

   • 	 Missing funding opportunities for priority projects. Regional staff stated that
       they could use multiyear plans that identify out-year research projects and funding
       needs to leverage dollars from one of the center’s major sponsors—Bonneville
       Power Administration.

   • 	 Lacking performance data to manage research priorities. Multiyear planning
       generates historical performance data against which the center can assess its
       success at answering the questions and take actions to improve or revise its
       agenda accordingly. To develop such data, experts recommend using interim
       performance measures that link to long-term strategic goals. The ultimate
       outcome of the center’s activities should be data that supports implementation of
       successful recovery actions for endangered and threatened stock. Reaping the
       benefits of these actions will take years, and as described in the Salmon Research
       Plan, the center recognizes that choosing the wrong approach could have
       disastrous consequences.

Center managers concurred with our assessment that multiyear plans should be completed
for most of the questions and reported that they have some of the information they need to
proceed with plans for certain questions. Center managers also explained that for a few
questions, for example question 10 concerning economic analyses, the center has not
been in the position to complete multiyear plans. These managers explained that these
questions were future priorities for which the center has had to hire experienced staff and
obtain the necessary funding. These actions are now underway and center managers stated
that they will create multiyear plans for these areas in the near future.

For question number 3, concerning the impact of hydropower operations on declining
salmon populations, center managers explained that research needs are well known. For
                                          10

U.S. Department of Commerce                                      Report No. STD-14440-2-0001
Office of Inspector General                                                   September 2002

example, these managers explained that research needs are discussed as part of the
reasonable and prudent activities recommended in the 2000 biological opinion and in
detailed research plans completed by the Northwest Division of the Corps of Engineers
and the Northwest Power Planning Council, an organization created to guide Bonneville
Power Administration funding. According to the center managers, staff conducting
hydropower research already participate in setting the research agenda for these programs.
However, we believe that the center should create its own multiyear hydropower plan to
(1) ensure that the highest priority hydropower questions and subquestions in the center’s
Salmon Research Plan are being fully addressed, (2) provide a single source of
information that can be used by decision makers and interested stakeholders to
understand the projects, the amount of funding, and milestones for the research being
conducted by the center in this area, and (3) show via performance measures how
research in this area is contributing to salmon recovery.

B. 	Multiyear plans should be developed in consultation with the regional office and
    other internal and external stakeholders.

Multiyear plans are important because they provide a better framework for integrating
research programs across organizational boundaries, such as those that exist between the
center and regional office. While NMFS regional managers (who benefit from the
center’s research) participated in meetings used to develop the plan, these managers told
us that they have had limited formal involvement in decisions related to implementing the
Salmon Research Plan. They reportedly reviewed the plan initially and thought the
questions were on target, but have only been involved in helping develop the three
existing multiyear plans. Seven questions remain for which they have had no formal input
regarding related center research and regional office needs.

The regional director and several senior staff told us they want to be more involved in
planning salmon recovery research. Because the center’s work should support the
Northwest region, we believe the participation of regional staff would facilitate the
development of comprehensive multiyear plans for all the questions. Center managers
agreed, and suggested meeting quarterly with regional officials to promote this
collaboration.

In addition, the guidance we reviewed from other federal research entities recommended
using multiyear plans to identify gaps in existing research and to gain input from
stakeholders in the planning process. Other NMFS regions and centers as well as
numerous state and local organizations conduct salmon research or rely on the Northwest
science center’s research to support their own recovery agendas. The center’s multiyear
planning process needs to include steps that identify the planned and completed research
of outside entities and incorporate, to the extent possible, the needs of its stakeholders.

C. 	Recommendations

The assistant administrator for fisheries should take the necessary actions to ensure that
NMFS regional and center management establish a consistent method for involving the
Northwest Regional Office and other stakeholders in developing strategies to achieve the
                                             11

U.S. Department of Commerce                                         Report No. STD-14440-2-0001
Office of Inspector General                                                      September 2002

goals of all 10 research questions, and should require the center director to do the
following:

      1. 	 Develop multiyear plans that clearly delineate (1) research projects and priorities;
           (2) staff and funding requirements; (3) project milestones; (4) roles and
           responsibilities of significant partners; and (5) interim performance measures that
           link to long-term strategic goals.
      2. 	 Work with the Northwest Regional Office to identify potential sources of funding
           for research projects included in the multiyear plans.
      3. 	 Follow appropriate peer review processes and document the results.

D. NOAA’s Response to Recommendations

NOAA concurs with the recommendations.


IV.        The Center Needs Better Processes for Managing Ongoing Work

As discussed earlier, OMB Circular No. A-123 requires federal agencies to implement
management controls to ensure that programs achieve their intended results. In
establishing the Salmon Research Plan, the Northwest center created a standard against
which to evaluate its recovery activities:

           It is hard to imagine a well-designed experiment or study involving
           salmon that would not in some way be useful to salmon recovery or
           provide a valuable specific contribution. The value of all relevant
           research, however, is not the point. Given the dire status of salmon
           stocks, we must establish scientific priorities, and make sure that we
           answer the most important questions first. Indeed, the purpose of
           producing this research plan is to provide a standard against which each
           research project can be measured. . . .If a research project does not
           contribute in a major way to the answering of one of these key
           questions, then the priority of that project needs to be reconsidered.8

We examined whether the center had adequate management controls in place to ensure
the program’s success at finding answers to the targeted questions in the Salmon
Research Plan, as the plan requires. Areas where improvements can be made are detailed
below.

A. 	The center has not documented how ongoing research is answering questions in
    the plan.

Knowing how much of the center’s work currently supports the plan provides an
important baseline for organizing and directing center resources (including staff).
However, center managers have not documented how or whether existing research

8
    Salmon Research Plan, p.1.
                                               12

U.S. Department of Commerce                                      Report No. STD-14440-2-0001
Office of Inspector General                                                   September 2002

supports the Salmon Research Plan, instead they evaluate the relevance of research to the
plan primarily through discussions at management meetings. The center director stated
that managers have a good handle on which work should be continued and which should
be phased out based on a project’s performance in relation to the questions. However, she
noted that neither this analysis nor the resulting decisions have ever been documented.
Center managers also acknowledged that not all salmon research is prompted by the
Salmon Research Plan. Other drivers—such as the 2000 Federal Columbia River Power
System Biological Opinion—dictate research priorities.

The center agreed that it should formally document its assessment of existing research
against the standards in the Salmon Research Plan, and we believe that the presence of
multiple research drivers underscores the importance of this documentation: not only
would it provide the center with a baseline of data for work under way to answer the 10
questions, it would also identify what new work needs to be initiated and how much of
the existing workload is directed toward priorities other than those stipulated in the
Salmon Research Plan. This data would thus inform the multiyear planning process by
pointing the way toward emerging research priorities as they relate to the 10 questions in
the plan.

B. 	The center should ensure that its annual planning and project approval
    processes document the specific ways in which proposed projects will support
    the Salmon Research Plan.
Guidance from federal research entities recommends that the methods and criteria
for selecting research priorities and projects be transparent enough to enable
decision makers to evaluate the adequacy of both the budget development process
and the resulting budget proposal. The experts note that such transparency would
not only improve communication and understanding of the budget process for
those outside the center, but would also bring greater efficiency to internal
decision making.

The science center reported that its processes for annual planning and project
approval incorporate a review of the work to be funded, to ensure that it meets the
standard of the Salmon Research Plan. To assess whether these processes do in
fact successfully align center work with the goals of the plan, we examined the
methods used for requesting new funding, assigning base (appropriation) funding,
and approving reimbursable agreements. We found that the center has no formal
process for weighing the value of current research projects against the plan’s
goals, and thus for determining with certainty which projects to fund.

The science center needs to improve its annual project approval process to include
documentation of a project’s relation to and priority for achieving the goals of the
Salmon Research Plan, and should incorporate the process into its standard
operating procedures. The center agreed that it could do a better job of
documenting its decision-making process and of ensuring that high-priority work
is identified and funded.



                                            13

U.S. Department of Commerce                                      Report No. STD-14440-2-0001
Office of Inspector General                                                   September 2002

The specific areas where improvements in its current processes should be made
include the following:

       Requests for new funding relate to the plan, but should be more
       clearly linked to specific questions in the plan. The center uses
       spending plans that detail funding needs and reasons for the request. We
       found that its FY 2001 spending plan does not specifically mention the
       Salmon Research Plan or any of its individual questions, but much of the
       work it discusses appears similar to the research described in the plan.

       Base-funded project decisions should be documented and linked to
       specific questions in the plan. The center’s processes for assigning
       appropriated funding are undocumented, and do not clearly link to the
       Salmon Research Plan. Funding decisions are based on input from several
       sources: center management meetings, issue papers, and current-year plans
       that detail the types of research to be conducted along with related
       milestones and annual resources. The center does not document decisions
       made at the meetings and thus has no formal record of how management
       evaluated projects in light of FY 2001 funding availability. In addition, its
       issue papers did not specifically link to the Salmon Research Plan, and it
       did not complete current-year operating plans for fiscal year 2001, which
       made it difficult for us to assess how funds and other resources were being
       used.

       Center managers explained that current-year operating plans were to have
       been replaced by a new planning and budgeting system under development
       by NMFS headquarters. Completion of the system was unexpectedly
       delayed leaving the center without plans or a process to follow for fiscal
       year 2001. Although all of the components of the new system are not yet
       complete, the planning component has since been installed, managers
       reported, and is being used for current-year planning in FY 2002. While
       this system moves the center closer to a transparent project approval
       process, it still does not document how the selection of base-funded
       programs supports the Salmon Research Plan.

       Reimbursable work should be linked to specific questions in the plan.
       Both proposals and agreements for reimbursable work lack specific links
       to the Salmon Research Plan. In the case of proposed research, the center
       provides, for management approval, a transmittal memorandum that
       contains brief, basic information about the project —the project’s title and
       a three- or four-word description—but no links to the Salmon Research
       Plan. The reimbursable agreement, which accompanies the memo,
       provides more detail but no mention of the plan. The center maintains that
       its reimbursable work does support the 10 questions. To make that
       connection clear, we believe that future transmittals should include a
       sentence or two stating which question the work addresses and whether the
       project was envisioned in the multiyear plan.

                                            14

U.S. Department of Commerce                                    Report No. STD-14440-2-0001
Office of Inspector General                                                 September 2002

C. 	The center needs a process for tracking full project costs to provide managers
    with accurate historical information on which to base approval of proposed
    research activities.
The Northwest science center does not adequately track resources and costs for
individual projects. Our review of fiscal year 2001 records and our discussions
with center managers revealed, for example, that the center does not have
procedures in place to track the amount of time researchers spend per project.
Instead, managers use budgeted amounts of time as the actual amounts expended.

In our August 1995 report, Opportunities to Improve Management of NMFS
Science Centers (STL-7634-5-0001), we recommended that NMFS develop and
implement a budget process that, among other things, includes procedures for
tracking budget estimates to actual expenditures. NMFS responded at the time,
that a planning, budgeting, and evaluating system then under development would
provide this ability. However, NMFS has been working on this system since
1996, but has yet to complete it. With more than 70 percent of the center’s budget
in fiscal year 2001 tied to labor costs, knowing specifically where and how these
funds are being used is important. Pending completion of NMFS’ automated
system, the science center needs its own process for tracking actual time spent on
projects to provide officials with the data they need to make informed decisions
about the cost of salmon recovery research, ensure that funds obtained from
reimbursable agreements are sufficient to cover the work, and manage the center’s
overall operations effectively.

D. 	The center should include the Salmon Research Plan in its criteria for
    assessing the merit of programs via the program review process.

Program reviews are a form of peer review in which experts from within and
outside an agency evaluate the relevance of research to agency goals. These
reviews assess the appropriateness of the research to the agency’s mission and its
potential value for intended users, ultimately dictating whether a program should
continue or terminate. Including the 10 questions in the assessment criteria for
program reviews would further document a program’s value in relation to the
plan. Over time, these reviews provide key information that can redirect resources
from low-priority projects to higher-priority pursuits.

According to center managers, selected program reviews have been conducted
over the past several years to ensure that the center is using the best available
science to accomplish its mission. However, we were unable to verify whether
these reviews evaluated the related program against relevant questions in the
Salmon Research Plan. During our audit, we learned that center officials were
planning to review the hatchery program—one of the three areas in the Salmon
Research Plan for which a multiyear plan exists. We suggested that the center use
the related high-priority questions and subquestions from the Salmon Research
Plan as the review’s benchmarks. The center agreed to do so, and this review,
scheduled for completion later in the year, should exemplify how the plan can be


                                           15

U.S. Department of Commerce                                       Report No. STD-14440-2-0001
Office of Inspector General                                                    September 2002

used as a performance standard. We believe the center should also document its
program review process and incorporate it into its standard operating procedures.

E.	 Recommendations

The assistant administrator for fisheries should take the necessary actions to ensure that
Northwest science center director

   1. 	 assesses and documents the extent to which existing projects support finding
        answers to the critical salmon research questions and subquestions;
   2. 	 modifies the annual review process to ensure that links to the Salmon Research
        Plan are clearly delineated, and that project approval procedures are standardized
        and documented;
   3. 	 implements a system to record and report on full project costs; and
   4. 	 uses the plan’s questions and subquestions as performance criteria in program
        reviews, and document the review process.

F.	 NOAA’s Response to Recommendations

NOAA concurs with the recommendations. Regarding the third recommendation, the
center accepts the recommendation, but would like to see the tracking system developed
at the NMFS headquarters level.

OIG Comments. We agree that it may be appropriate for NMFS Headquarters to take the
lead on developing this system and understand that steps to implement one are ongoing.
In the meantime, the center should take steps to enhance its existing process by tracking
actual costs at a project level, rather than a broader program or subtask level. These steps
should not require the center to develop its own new automated system.

V. Summary of NOAA’s Response to the Draft Report

In response to the draft report, NOAA agreed with all of our recommendations
and further stated that all of its NMFS science centers could benefit from
undertaking similar actions. In addition, NOAA made three general comments to
emphasize steps that the center has taken to build its processes for planning,
implementing, and tracking research. These comments are discussed below.
NOAA also made a number of specific comments that we addressed, when
necessary, by adding further clarification or additional details to the report.
Several of the specific comments regarding the distinction between effective
processes versus documenting the processes and the extent of regional office
involvement are addressed as part of our response to the three general comments.
NOAA’s complete response to our findings and recommendations is included as
Appendix II.




                                             16

U.S. Department of Commerce                                      Report No. STD-14440-2-0001 

Office of Inspector General                                                   September 2002



NOAA General Comment #1
   The center states that it has placed considerable emphasis on the organization,
   planning, tracking, and accountability of its research. It noted that, while more can be
   done, it has had to make choices based on limited resources. The center indicated that
   in the future it plans on adjusting its resources to focus more on documentation of its
   actions; however, this rebalancing will require a shift of some resources from
   scientific research to administrative tasks.

OIG Comment: Improving documentation will aid in making the center’s process more
transparent. However, our report discusses the need to not only document processes but
to make sure the processes are effective for accomplishing the results. For example, we
state that the peer review process should be improved and documented, the multiyear
planning process needs to be created, implemented, and documented, and that the process
for managing ongoing work needs to be improved and documented. Thus, the emphasis
is equally balanced on improving, as well as, documenting the process.

Regarding the need to shift resources from science to administration, we believe that the
center can address our recommendations regarding peer review and managing ongoing
work by opting to use its administrative staff assigned to each division, as well as other
support staff responsible for administration and planning, before reassigning scientists.
Regarding our recommendations related to multiyear planning, center officials have told
us that they have much of the information needed to complete the plans. Given the
sensitivity, complexity, and importance of salmon recovery in the Pacific Northwest, we
believe this investment is warranted.

NOAA General Comment #2
   The center points out that it has put forth a significant amount of effort to give
   regional staff the opportunity to influence the Salmon Research Plan’s content and
   subsequent implementation. The center lists numerous planning meetings involving
   the regional office from 1996 through December 2000 as evidence of its efforts to
   involve the regional office.

OIG Comment: We agree that the center has created opportunities to involve the regional
office in the development of the Salmon Research Plan. The intent of our discussion was
to emphasize the importance of regional involvement in formally reviewing the plan and
implementing it using the multiyear planning process. The center has agreed to involve
the region in reviewing the plan and developing multiyear plans to address all of the 10
major questions. We believe the regional office should use these opportunities to
proactively participate in setting the salmon research agenda.

NOAA General Comment #3
   The center states that while peer review of the Salmon Research Plan was not
   documented, the vast majority of its scientific products are peer reviewed. The center
   also noted that the Salmon Research Plan was reviewed by the Independent Scientific
   Advisory Board and the Recovery Science Review Panel (a panel of scientists that
                                            17

U.S. Department of Commerce                                      Report No. STD-14440-2-0001 

Office of Inspector General                                                   September 2002


   helps guide the scientific and technical aspects of recovery planning for listed salmon
   and steelhead species on the west coast ). The center states that a policy being
   developed by NMFS Science Quality Assurance Program will articulate a policy for
   peer review of stock assessments, scientific advice, and science programs. Finally,
   the center will be developing a plan to receive formal management and stakeholder
   review of the Salmon Research Plan. As part of this plan, the center will formally
   solicit comments on the Plan from its website.

OIG Comment: We agree with NMFS’ steps to complete the peer review policy. We
also understand and discuss in the report that many of the center’s scientific products are
peer reviewed and that the plan was reviewed by the Independent Scientific Advisory
Board, but that this was not a formal process with written comments. According to the
detailed comments provided in the center response, the center only recently found a
comment provided by the Recovery Science Review Panel in March 2002. While such a
comment is helpful, the fact that it come over 2 years after the issuance of the plan
supports our point that a timely, formal review was not conducted after the plan was
issued in December 2000.




                                            18

                                                                  APPENDIX I 

Salmon Research Questions and Subquestions1
 1. How can we identify the requirements for viability in a salmonid ESU so that we can provide quantitative goals for
    recovery?
    •   What are the consequences for population viability analysis of making a mistake in defining the population unit(s)? What types of mistakes are
        the most likely and which have the most serious consequences?
    •   What are the demographic and genetic consequences of dispersal among salmon subpopulations?
    •   How can we evaluate viability of systems that include a composite of natural and hatchery fish?
    •   To what extent does life history and/or habitat diversity increase sustainability of a population or larger conservation unit?
 2. Is salmon harvest compatible with recovery of ESA listed populations?
    •   Are the current indirect exploitation rates on ESA listed salmon populations limiting recovery of threatened populations?
    •   Can selective gear be developed to allow harvest of hatchery and healthy stocks?
    •   Can we better estimate incidental mortality rates in selective fisheries?
 3. To what extent do hydropower operations contribute to the declining population trends evident in many salmon
    populations, and how can we quantify the benefits of major alterations in hydropower operations?
    •   With respect to currently proposed or other hydrosystem operational measures, how can we improve direct survival of salmonids migrating
        through the hydropower system?
    •   How can we identify and quantify indirect or delayed effects of hydrosystem operations on salmonid survival and fitness?
 4. To what extent do hatchery operations of any kind contribute to or mitigate the risk of extinction faced by wild salmon
    populations?
    •   Is it possible to produce juvenile fish from hatcheries that can contribute to increased natural productivity and aid in recovery of listed
        populations?
    •   What are the impacts of releases of hatchery fish on the viability of wild salmon populations?
 5. Can we establish explicit links between salmon productivity and habitat attributes that can be protected or restored via
    management actions?
    •   What is the relationship between habitat attributes at various scales and salmonid production?
    •   What is the effect of human induced habitat changes on salmonid populations?
    •   What are effective restoration strategies for restoring degraded habitat and what are the quantitative effects on fish abundance?
 6. Should our strategies for salmon recovery take climate change into account?
    •   What features of climatic cycles and trends have the greatest influence on salmonid survival and via what mechanisms?
    •   In order to accommodate severe environmental change, do we need more subpopulations of salmon than we might otherwise require?
    •   Can we anticipate impacts of climate change on species with which salmonids interact that might in turn profoundly alter salmon population
        dynamics?
 7. How do ocean and estuarine conditions and the “4-H” risk factors interact and potentially constrain opportunities for
    recovery?
    •   Obtain a better understanding of the distribution and movement patterns of juvenile salmonid in the estuaries and the ocean.
    •   Obtain a better understanding of how variation in health and physiological condition of salmonid control growth and survival in estuaries and the
        ocean.
    •   Obtain a better understanding of trophic-dynamics and food webs important to salmonids, especially of the relative importance of top-down vs.
        bottom-up processes in controlling salmonid production.
 8. Is there a way of making the ideal of “ecosystem and multispecies management” operational for salmon?
    •   Can long-term areal closures serve as a management tool that conserves biomass, reduces disruption to system structure and protects vulnerable
        habitats?
    •   To what extent can nutrient enhancement or predator reduction increase salmon productivity?
    •   Do non-salmonid fisheries (e.g. squid, anchovy, herring, pollock, etc…) influence the dynamics of salmon populations?
 9. What are the impacts of nonindigenous species on salmon and how might these impacts be mitigated?
    •   What is the total collective impact of nonindigenous species on recruits per spawner and annual rates of population growth in west coast
        salmonids?
    •   Are there pragmatic management actions that could alleviate the harm caused by nonnative species?
    •   Are there incipient nonindigenous species problems that are potential future threats to wild salmon, but not out of control?
    •   Can we begin to learn from these analyses what combinations of species and ecosystem processes most exacerbate the undesirable impacts of
        nonindigenous species in marine systems?
10. Using economic analyses to establish conservation priorities.
    •   What are the likely increases in the annual rate of population growth for salmon populations as a result of well-defined, specific management
        actions?
    •   What are the economic costs for particular management actions?
    •   How can the uncertainty in cost and benefit estimates be combined in a simple and informative manner?
    •   How does the analysis vary if we relax the assumption of linearity (i.e., that the benefit per dollar is a constant ratio across the entire range of
        demographic rates)?




        1
            Some questions paraphrased for brevity.
